Docket Number 1*1-116#

SUPREME COURT OF THE UNITED STATES

Jacob C. Springer, U.S. Army, Retired and
T. Jeanetta SpringerPetitioners Pro Se
V.

Wells Fargo Bank, N.A.,
as successor of Wachovia Bank, N. A.,
formerly known as Southtrust Bank, N. A
SIROTE & PERMUTT, P. C.,
VERNON BARNETT,
Commissioner,

FILED
APR 2 2 20M

Respondents

ON PETITION FOR WRIT OF CERTIORARI TO THE
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT
Jacob C. Springer, U.S. Army, Retired
T. Jeanetta Springer
Pro Se
195 Cynthia Circle
Roanoke, AL 36274
(256) 375-2862
(334) 338-5004

RECEIVED
APR 2 9 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S

i

QUESTIONS PRESENTED
1. If you demand a trial by jury and pay the fees to the
Court for it, can the court force you (as a pro se) to a bench
trial to cover up Color of Law Abuses?
2. Should a Federal Judge recuse himself or herself
when it can be proven that he or she withheld information
as part of an ongoing conspiracy?
3. Should a Judge recuse himself or herself from a case
where bias is (or appears to be) present on the part of the
Judge where his or her conduct in the first case could only
be considered as shock the conscience?
4. Should two state-court decisions be inextricably in­
tertwined where this foreclosure was initiated in the same
court as the ongoing conspiracy?
5. Should the United States District Courts use RookerFeldman Doctrine when case precedence for the decisions
rendered by the State Courts were nullities and the State
itself waived judicial immunity of the judge?
6. If the state waived the immunity of the judicial of­
ficer because of willful misconduct, why should that judge's
order still be good, in which the decision violates petition­
ers’ rights to due process?

ii

LIST OF PARTIES
All parties appear in the caption of this case on the
cover page.
TABLE OF CONTENTS
1
QUESTIONS PRESENTED.........................
n
PARTIES TO THE PROCEEDING..............
in
TABLE OF AUTHORITIES..........................
1
PETITION FOR A WRIT OF CERTIORARI
1
OPINIONS BELOW.......................................
3
JURISDICTION................................................
CONSTITUTIONAL AND REGULATORY PROVISIONS
3
INVOLVED................................................................
5
STATEMENT OF THE CASE ............................
7
REASONS FOR GRANTING THE PETITION
11
CONCLUSION...........................................................
12
APPENDICES................................. ..........................
INDEX TO APPENDICES
APPENDIX A: Order from the United States Court of Ap­
peals for the Eleventh Circuit...........................................
APPENDIX B: Middle District Court..............................

iii

TABLE OF AUTHORITIES
Marbury v. Madison, 5 U.S. 137(1803)..............
CF. Marshall v. Jerrico, Inc.,
446 U.S. 238, 242 (1980).......................................
Caperton v. A.T. Massey Coal Co., 08-22 (2009)
Rippo v. Baker 580 U.S.__ (2017)
Cooper v. Aaron, 358 U.S. 3
Constitution of Alabama (1901)
Article I, §11.....................................
Code of Alabama 1975
Amendment 317-3..........................
Title 28, United States Code §455,
Title 18, United States Code §242,
Title 18, United States Code §4....
Constitution of the United States
Seventh Amendment......................
Fourteenth Amendment.................

10
8
9
9
9
4
4
3
2
2
4
4

1

PETITION FOR WRIT OF CERTIORARI
Petitioners Jacob C. Springer, U.S. Army Retired, Pro
Se, and T. Jeanetta Springer, Pro Se, respectfully prays to­
gether that a Writ of Certiorari be issued to review the
Judgement of the United States Court of Appeals for the
Eleventh Circuit entered into this proceeding.
OPINIONS BELOW
The first case, which involved an automobile accident
(which Judge Wallace Capel invoked Rooker-Feldman Doc­
trine), after approaching the United States Court of Ap­
peals for the Eleventh Circuit, I brought the case to the Su­
preme Court of the United States.
Once I returned to the United States Middle District
Court for the Middle District of Alabama, the case was dis­
missed without prejudice. The State Courts of Alabama
would not issue opinions because by waiver of immunity, it
placed this case in Federal Court.
Once again it was dismissed due to subject matter ju­
risdiction after they had received the consent of the State of
Alabama.
The foreclosure eviction took place October 15th, 2015.
I filed the suit about the Wrongful Foreclosure October 17th,
2017. At that time, I asked Judge Wallace Capel to recuse
himself. I felt that we would have a better chance of being
heard by a different Judge or Magistrate because of the de­
cision Capel rendered in the first case.
In Judge Capel’s denial for recusal, he stated, “there
were two cases in which I was a part of (that I oversaw).”
He listed the cases Springer v. Perryman, et. al. (3:11-CV936-CWC) and (3:15-633-WKW-CWC) Springer v. Perry­
man.

2

I also filed a complaint with the Judicial Inquiry
Commission of the Eleventh Circuit that Judge Capel, un­
der Title 18, United States Code §4, ‘Whoever, having
knowledge of the actual commission of a felony cognizable
by a court of the United States, conceals and does not as
soon as possible make known the same to some judge or
other person in civil or military authority under the United
States, shall be fined under this title or imprisoned not
more than three years, or both.”
In 3:ll-CV-936-CWC Springer v. Perryman. Judge
Capel knew there was deprivation of civil rights taking
place under Title 18, U.S. Code, §242.
I told Judge Capel back in 2011 that if nothing was
done about the denial of due process in the Circuit Court of
Randolph County, Alabama, that this foreclosure would
happen. It did.
This foreclosure was designed and orchestrated by an
individual named as defendant in the first case. The pro­
cess was to have me endorse a check where there is no rec­
ord of anyone signing a release form to receive over One
Hundred and Forty Thousand Dollars ($140,000.00).
The Circuit Court of Randolph County, Alabama used
these tactics of bench trials so that, regardless of the Con­
stitution, the Rooker-Feldman Doctrine allows these deci­
sions to remain standing in the United States District
Court. The truth of the matter is, as I have tried to present
the whole time, I have tried to represent myself because as
a pro se litigant, the doors of justice have been barred and
closed on any party’s self-representation.

3

It appears the bias is so permeable that it is virtually
impossible for a citizen to have equal protection under the
law. By the United States District Court upholding the ac­
tions and decisions (or lack thereof) which are unconstitu­
tional, even if the State removed the case to Federal Courts,
Judge Wallace Capel still said they have no subject matter
jurisdiction.

JURISDICTION
The United States Court of Appeals for the Eleventh
Circuit rendered its decision on the 23rd of January, 2020.
This petition is timely filed within 90 days of that date.
The Jurisdiction of this court is invoked under Title 28,
United States Code §1254.

CONSTITUTIONAL AND REGULATORY PROVI­
SIONS INVOLVED
United States Constitution
Fifth Amendment
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or in­
dictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual ser­
vice in time of war or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of
life or limb, nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall private
property be taken for public use, without just compensa­
tion.

4

United States Constitution
Seventh Amendment
In suits at common law, where the value in contro­
versy shall exceed twenty dollars, the right of trial by jury
shall be preserved, and no fact tried by a jury shall be oth­
erwise reexamined in any court of the United States, than
according to the rules of common law.
United States Constitution
Fourteenth Amendment
Section I
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the
United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States;
nor shall any state deprive any person of life, liberty, or
property without due process of law, nor deny to any person
within its jurisdiction the equal protection of the laws.
Constitution of Alabama, 1901
Article 1, Section 11
That the right of trial by jury shall remain inviolate.
Amendment 317-3 Removal from Office
Title 42, United States Code, §1983

5

Every person who, under color of any statute, ordi­
nance, regulation, custom, or usage, of any State or Territo­
ry or the District of Columbia, subjects, or causes to be sub­
jected, any citizen of the United States or other person
within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitu­
tion and laws, shall be liable to the party injured in an ac­
tion at law, suit in equity, or other proper proceeding for
redress, except that in any action brought against a judicial
officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a de­
claratory decree was violated or declaratory relief was una­
vailable. For the purposes of this section, any Act of Con­
gress applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of Colum­
bia.

STATEMENT OF THE CASE
I beg you not to dismiss this case. The truth, the moral­
ity, the justice, the issues involved are beyond argument.
Your honors, please do not judge this case or any other case
by its advocate. What is this all about? Why are we here a
second time, complaining of the same issues that I com­
plained of in the first case? Why do we take the time of this
court to plead our case yet again? Because it is not our
case alone. It is the case of all people denied an inalienable
right by willful and arbitrary actions by public officials.

6

We MUST be protected and shielded from such malice.
And where can we look for such equal protection for relief?
Where else, but to the Constitution of the United States;
the ethic, the soul and the gravity of the American System.
And, to this great court, wherein lies the great responsibil­
ity to see that “IMPARTIAL JUSTICE” is done. Your hon­
ors, it is unlawful to deny a man due process because he is a
pro se litigant and/or because of the accident of his birth,
the end being unlawful. It is equally unlawful to use any
means to accomplish that unlawful act.
Your honors, this is the SUPREME TRUTH: “something
that is morally wrong, can NEVER be legally right.”
In January 2010, I filed a complaint in the United
States District Court for the Middle District of Alabama
complaining the judges and lawyers had conspired against
me. At that time, the case was titled Springer v. Perryman.
In my answer in opposition to the Judge’s Recommenda­
tions, I informed the Court at that time that if they did not
do anything about the way my Constitutional rights were
being violated in the Circuit Court of Randolph County, Al­
abama, that they would attempt to foreclose on my wife’s
house.
The Middle District Court dismissed my case under
Rooker-Feldman Doctrine as a “state-court loser”. The case
then went to the United States Court of Appeals for the
Eleventh Circuit, which they stated that there was a juris­
dictional bar and affirmed. I brought the case to the Su­
preme Court of the United States, under docket number 101126, requesting a writ of certiorari. The Cert was denied
in May 2011.
The four individuals named in the case had waived their
rights to respond in This Court.
I then contacted the Alabama Attorney General’s office
in 2011, and I was informed by them they only ‘...represent
state employees.’

7

By the State Attorney General waiving the immunity of
state officials, which was completely ignored by the Middle
District Court, they dismissed the case under subject mat­
ter jurisdiction.

REASONS FOR GRANTING THE PETITION
The reason why this Court should grant the petition is
that this would nullify the gross miscarriage of justice.
When the State and lower Federal Courts ignore equal pro­
tection under the law for all citizens, whether you are pro se
or represented by an attorney, equal justice MUST apply
for All. You can’t have a double standard where judges and
attorneys make the rules on how the outcome of a case to
be. Where they go out of their way to wear you down so
that the pro se would give up on the pursuit of equal protec­
tion when no other would take the case to help them.
The United States District Court for the Middle Dis­
trict of Alabama has a pro se assistance program, however,
they would not let me enter that program. Out of all the
lawyers and judges who have looked at this case, the issues
in this case were simple.
The Rights to a Trial by Jury. When the state courts
are allowed to take away this right and have a bench trial,
the outcomes will always be the same. Where conflict of in­
terest, fraud upon the court, and ex parte communications
where officers of the court openly make remarks that
Sprinser can’t set over the hurdle of Rooker-Feldman
Doctrine. Where one judicial officer ignores fraudulent
mistakes by the other judges to make it look like this was a
legal procedure.
Cf. Marshall v. Jerrico, Inc.,

8

446 U. S. 238, 242 (1980) (noting the importance of “pre­
serving] both the appearance and reality of fairness,”
which “ ‘generates] the feeling, so important to a popular
government, that justice has been done’”) (quoting Joint
Anti-Fascist Refugee Comm. V. McGrath, 341 U. S. 123,
172 (1951) (Frankfuter, J., concurring)).
The standard that ought to be adopted for all allegations of
an apparent fixed predisposition, extrajudicial or otherwise,
follows from the statute itself: Disqualification is required
it an objective observer would entertain reasonable ques­
tions about the judge’s impartiality. If a judge’s attitude or
state of mind leads a detached observer to conclude that a
fair and impartial hearing is unlikely, the judge must be
disqualified.
On the 6th of December, 2017, I filed a motion asking
Judge Capel to recuse himself from the case due to past rul­
ings made by him and also the fact he showed favoritism to
the State Court Officials. Alabama Constitution, Amend­
ment 317 ratified;3. A judge may be removed from office
due to willful misconduct in office.
The State of Alabama gave consent for a case to be
moved from State Court to Federal Court. The case was
then dismissed by the Middle District Court under the
Rocker Feldman Doctrine. I was still called a State Court
loser. This is why I strongly know that Judge Capel showed
a double standard in administering justice.
(2017), The opinion
In Rwjdo v. Baker 580 U.S.
states, “Recusal is required when, objectively speaking, ‘the
probability of actual bias on the part of the judge or deci­
sion maker is too high to be constitutionally tolerable.'” Due
to this, the previous judgment was vacated and Rippo’s case
was remanded for further proceedings. The Court further
noted that the Due Process Clause was "intended to prevent
government officials 'from abusing [their] power, or employ­
ing it as an instrument of oppression.”

9

“A judge is liable for injury caused by ministerial act;
to have immunity, the judge must be performing a judicial
function.” (100 U.S. 339; 2 Harper & James The Law of
Torts, 1642-1643 (1956) The presence of malice and the in­
tention to deprive a person of his constitutional rights he
exercises no discretion or individual judgment; he acts no
longer as a judge, but as a “minister” of his own prejudices.”
In Cooper v. Aaron, 358 U.S. 3, “No state legislator or
executive or judicial officer can war against the Constitu­
tion without violating his solemn oath to support it.” (P. 358
U.S. 18)
Caperton v. A. T. Massey Coal Co., 556 U.S. 868
(2009), is a case in which the United States Supreme Court
held that the Due Process Clause of the Fourteenth
Amendment requires a judge to recuse himself not only
when actual bias has been demonstrated or when the judge
has an economic interest in the outcome of the case but also
when "extreme facts" create a "probability of bias."
As written in Marhury v. Madison, 5 U.S. 1 Cranch
137 (1803)
“The oath of office, too, imposed by the Legislature, is
completely demonstrative of the legislative opinion on this
subject. It is in these words:
“I do solemnly swear that I will administer justice
without respect to persons, and do equal right to the poor
and to the rich; and that I will faithfully and impartially
discharge all the duties incumbent on me as according to
the best of my abilities and understanding, agreeably to the
Constitution and laws of the United States.”
Why does a judge swear to discharge his duties agree­
ably to the Constitution of the United States if that Consti­
tution forms no rule for his government, if it is closed upon
him and cannot be inspected by him?

10

If such be the real state of things, this is worse than
solemn mockery. To prescribe or to take this oath becomes
equally a crime.
It is also not entirely unworthy of observation that, in
declaring what shall be the supreme law of the land, the
Constitution itself is first mentioned, and not the laws of
the United States generally, but those only which shall be
made in pursuance of the Constitution, have that rank.
Thus, the particular phraseology of the Constitution of
the United States confirms and strengthens the principle,
supposed to be essential to all written Constitutions, that a
law repugnant to the Constitution is void, and that courts,
as well as other departments, are bound by that instru­
ment.

CONCLUSIONS
As pro se litigants, we come to this court a second time, re­
questing that the cases rendered in the Randolph County
Circuit Court of Alabama, be remanded for a new trial. The
Circuit Court has a problem with allowing pro se litigants
the rights of Due Process of the law. In a case not pertain­
ing to this, the Middle District Court of Alabama, warned
the Randolph County Circuit Court over 40 years ago about
Due Process violations. They have not changed.
The wrongful foreclosure was initiated to cover up a previ­
ous decision rendered by this court. The attorney that rep­
resented us was allowed to recuse himself from represent­
ing us because I, Jacob Springer, would not endorse a check
issued by the Circuit Court. His primary job was to get me
to endorse the check which showed unlawful conduct in
Springer vs. Perryman.

11

The only reason they have bench trials in the Circuit
Court in Randolph County is because they have an advo­
cate in the Middle District Court who will use the Rooker
Feldman Doctrine to bar all pro se’ litigants from receiving
justice. The right to have a trial by jury is what we have
been seeking for over 17 years but has fallen on deaf ears.
The very same judge that I asked him to recuse, and he
would not, because he used his judicial protection to protect
the wrongdoers.
The right to a trial by a jury does not require a “Solo­
mon’s Decision”.
Respectfully Submitted, April 15, 2020
Jacob C. Springer and T. Jeanetta Springer, Pro Se’
195 Cynthia Circle
Roanoke, Alabama 36274
256-375-2862

APPENDIX

